U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210


January 09, 2009


MEMORANDUM FOR:            RICHARD E. STICKLER
                           Acting Assistant Secretary for
                            Mine Safety and Health



FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Complaints Received from The American
                           Coal Company
                           05-09-002-06-001

The Office of Inspector General (OIG) received written complaints from The American
Coal Company (Am Coal) dated June 9, 2008, September 5, 2008, October 2, 2008,
and October 9, 2008, related to the Mine Safety and Health Administration’s (MSHA)
oversight of the Galatia Mine (ID 11-02752). The complaints allege that MSHA
personnel in District 8 have (a) abused their authority and discretion; (b) breached
ethical obligations; (c) violated the Federal Mine Safety and Health Act of 1977 (Mine
Act), the MINER Act, and federal regulations; and (d) taken actions that are arbitrary
and jeopardize the safety of miners.

In addition, some of Am Coal’s complaints challenge the appropriateness of specific
enforcement actions initiated by MSHA. As the delegated program agency, it is
MSHA’s responsibility to interpret and implement mine safety and health statutes. The
Federal Mine Safety and Health Review Commission (FMSHRC) provides
administrative trial and appellate review of legal disputes arising under the Mine Act.
Challenges of specific enforcement actions taken by MSHA are properly adjudicated
by the FMSHRC. Therefore, we have not assessed the merits of Am Coal’s
complaints related to the appropriateness of specific enforcement actions.

Overall, we found no indications that MSHA personnel had abused their authority or
discretion, breached ethical obligations, acted arbitrarily, or took actions that
jeopardized the safety of miners. We did, however, identify statutory, regulatory, and
operational issues that require resolution to assure consistent implementation of
MSHA’s oversight responsibilities at all coal mines. Moreover, we found that in some
instances MSHA has already taken actions to address issues raised by Am Coal.

The specific complaints and our disposition of each are summarized in the following
table.

                    Working for America’s Workforce
                                                           -2-


                                    Description of Complaint                                             Disposition
     1.   MSHA District 8 did not timely review and approve mine plans and
                                                                                                            See p. 3
          amendments submitted by Am Coal.
     2.   MSHA’s District 8 District Manager directed unwarranted and
                                                                                                    No indications found
          excessive inspections of Am Coal’s Galatia Mine.
     3.   MSHA’s District 8 Assistant District Manager made “unethical,                               MSHA addressed
          biased” statements against Galatia Mine personnel to a reporter                            this matter through
          which were subsequently printed in a trade publication.                                   administrative action
     4.   MSHA inspectors did not provide mine management the opportunity
                                                                                                    No indications found
          to accompany them during a mine inspection.
     5.   MSHA inspectors did not comply with the underground tracking
          system required by the mine’s approved Emergency Response Plan                                    See p. 3
          when conducting an inspection.
     6.   MSHA District 8 management directed inspectors to issue a
                                                                                                            See p. 5
          predetermined minimum number of violations per inspection hour.
     7.   MSHA’s District 8 Assistant District Manager prohibited mine                               Enforcement action
          examiners from travelling beyond the area of a roof fall without                           challenge should be
          justification, effectively idling the entire mine.                                            addressed to
                                                                                                          FMSHRC
     8.   MSHA inspectors obtained direction from supervisors prior to
          notifying Am Coal management of whether and what type of violation                        No indications found
          would be issued after an inspection.
     9.   MSHA’s District 8 Assistant District Manager required an                                   Enforcement action
          unwarranted evacuation of one area of the mine (Galatia North                              challenge should be
          portal) based on conditions in another, unrelated area of the mine                            addressed to
          (New Era portal).                                                                               FMSHRC
    10.   MSHA inspectors issued a closure order based on air readings
                                                                                                            See p. 5
          inappropriately taken in gob areas outside a bleeder system.
    11.   MSHA inspectors issued a citation regarding marking of escapeways                          Enforcement action
          that conflicted with State of Illinois mining laws.                                        challenge should be
                                                                                                        addressed to
                                                                                                          FMSHRC
    12.   MSHA inspectors threatened and intimidated mine examiners with
                                                                                                     See footnote below 1
          revocation of their State certification.
    13.   MSHA District 8 inappropriately issued closure orders related to roof                      Enforcement action
          falls and required Am Coal to submit clean-up plans for approval.                          challenge should be
                                                                                                        addressed to
                                                                                                          FMSHRC
    14.   MSHA inspectors issued verbal closure orders without being present
                                                                                                            See p. 7
          at the mine.


1
    Am Coal did not provide details which we could follow-up on and verify. However, inspectors we interviewed denied
    threatening or hearing other inspectors threaten mine examiners. District 8 officials recalled receiving this type of
    complaint from a mine operator more than 3 years ago (but not from Am Coal) and took administrative action.
                                            -3-


Please inform me within 60 days of the actions that MSHA plans to take to address the
issues and recommendations summarized below.

#1 - Timely Mine Plan Approval
Am Coal complained that its mine plan submissions are not being reviewed and
approved in a timely manner. MSHA acknowledged that current limits on the number
of fully qualified coal mine inspectors and an emphasis on completing all mandatory
inspections (i.e., 100 percent plan) has negatively impacted the timeliness of mine
plan reviews across all districts. Many district personnel whose duties would typically
focus on reviewing mine plans have been re-directed to perform mandatory mine
inspections. Data provided to the OIG by MSHA showed 442 plans with overdue
reviews across MSHA’s eleven coal districts as of June 2, 2008.

        District Æ    1      2      3      4      5    6     7      8     9     10    11    Total
      # of Overdue
                     50     91     68     87      17   15    32    69     10    1     2     442
      Plan Reviews
      % of Total     11.3   20.6   15.4   19.7   3.8   3.4   7.2   15.6   2.3   0.2   0.5   100.0

MSHA officials stated that they have taken specific actions in an effort to address the
problem of overdue plan reviews. At various times during Fiscal Year (FY) 2008,
MSHA temporarily re-assigned four individuals to District 8 specifically to assist in
reviewing submitted mine plans. In addition, throughout FY 2008, MSHA had
temporarily re-assigned personnel to various districts – primarily Districts 2, 4, and 8 –
to assist in completing mandatory inspections. MSHA stated that these additional
inspection resources have allowed the receiving districts to re-allocate their existing
resources to help with needed mine plan reviews.

MSHA estimated that the backlog of overdue mine plan reviews should be significantly
reduced or eliminated by January 2009 as current inspector trainees become fully
qualified coal mine inspectors. These increased inspection resources are expected to
allow MSHA to re-allocate existing resources to plan reviews.

We recommend that MSHA establish a written plan for eliminating the current
backlog of overdue mine plan reviews and maintaining timely reviews in the
future.

#5 - Guidance re Inspector Compliance with Emergency Response Plans
Am Coal complained that MSHA coal mine inspectors are violating the MINER Act by
refusing to comply with the underground tracking provisions contained in the mine
operator’s Emergency Response Plan (ERP). District 8 personnel stated that MSHA
personnel are exempt from the ERP tracking requirement because providing such
information would constitute “pre-notification” of an inspection, which is prohibited by
the Mine Act. They further stated that they only provide the mine operator with
information on their location in the mine after reaching their inspection destination.
                                            -4-


MSHA explained that its position on this issue was made known to mine operators in a
“Question and Answer (Q & A)” document associated with a Program Policy Letter 2
concerning implementation of Emergency Response Plans required by the MINER
Act. Under the heading of “Post-accident Tracking,” the Program Policy Letter stated

       The tracking system used by the operator should be able to determine the
       current, or the immediate pre-accident location of all underground
       personnel.

Item 2 under the “Post-accident Tracking” section of the related Q & A document
stated:

       2. Are mine operators required to track Federal and state government
          officials to comply with the tracking requirements of the MINER Act?

           Mine operators are not required to track Federal and State officials.

However, the Program Policy Letter expired on March 31, 2008, without being
reissued or permanently incorporated into MSHA’s Program Policy Manual.

MSHA also provided the OIG with guidance contained in an October 18, 2007, e-mail
from the Solicitor’s Office (SOL) indicating that “extraordinary measures” such as non-
compliance with ERP tracking provisions are legal when MSHA “has some justification
for believing there is something hard to detect, but dangerous going on” and “is
employed only to deter the most dangerous conduct.” The SOL guidance concludes
that “MSHA doesn’t have to tell the dispatcher where they are going, nor report their
locations to the dispatcher. Once the special inspection activity is completed in an
area, MSHA inspectors and any accompanying miners’ rep. or company rep. can then
report their location under the ERP.”

MSHA’s Coal Mine Safety and Health (CMS&H) Administrator stated that he expected
coal mine inspectors to comply with tracking requirements in ERPs during most
inspections.

We believe MSHA’s policy regarding its mine inspectors’ compliance with the tracking
requirements of mine operators’ Emergency Response Plans is unclear. The position
stated in the SOL e-mail and the expectations expressed by the CMS&H Administrator
are narrower than the guidance provided in the Q & A related to the Program Policy
Letter. The Program Policy Letter’s expiration further confuses a clear understanding
of MSHA’s current position.

We recommend that MSHA issue a written policy or, if necessary, pursue
legislation to establish the basis for and circumstances under which inspectors

2
  Program Policy Letter P06-V-09 was issued on August 4, 2006. It was superseded by Program Policy
Letter P06-V-10 issued on October 24, 2006 which included the same information on post-accident
tracking.
                                       -5-


are not required to comply with tracking requirements of ERPs during an
inspection.

#6 - Enforcement Quota
Am Coal complained that an MSHA coal mine inspector had stated that he had been
directed by his supervisors to issue “0.4 violations per inspection hour.” We
interviewed five District 8 inspectors and officials and found disagreement on this
issue. Some recalled supervisors discussing their use of “key indicator” data to
monitor inspection activity, but did not interpret the statements to establish an
“enforcement quota” for inspectors. Others recalled the data being presented as an
“expectation” of inspectors’ performance.

MSHA Headquarters officials stated that (a) there are no minimal levels of
enforcement actions expected of mine inspectors, (b) historical data is tracked as one
of several tools available to managers to oversee enforcement activity, and
(c) inspectors are trained to issue appropriate citations or orders for any violations
observed during the course of an inspection of the mine. They further stated that
enforcement expectations are defined in MSHA’s Citation and Order Writing Handbook
for Coal Mines and Metal and Nonmetal Mines. Based on Section 104(a) of the Mine
Act, the handbook states that a mine inspector “must issue a citation or order to the
mine operator” when the inspector “believes that the operator has committed a
violation of the Mine Act or any mandatory health or safety standard, rule, order, or
regulation promulgated pursuant to the Mine Act.”

We recommend that MSHA clarify with all of its inspectors and managers that
historical enforcement data is not intended to establish any minimum level of
enforcement actions and that citations or orders for any violations are to be
based on observations made during the course of an inspection.

#10 - Examination of Bleeder Systems
Am Coal complained that an imminent danger order was issued by MSHA in
April 2007 at the Graben Bleeder system for accumulations of methane gas based on
air readings taken in an adjacent gob area, rather than at established evaluation points
within the system.

Title 30 of the Code of Federal Regulations, Section 75.334(b) states:

      (1) During pillar recovery a bleeder system shall be used to control the
      air passing through the area and to continuously dilute and move
      methane-air mixtures and other gases, dusts, and fumes from the
      worked-out area away from active workings and into a return air course
      or to the surface of the mine.

      (2) After pillar recovery a bleeder system shall be maintained to provide
      ventilation to the worked-out area, or the area shall be sealed.
                                           -6-



The District 8 Ventilation Supervisor stated that in the days preceding issuance of the
imminent danger order mine records showed that methane levels had been increasing
at some locations within the bleeder system. As a result, he suspected that the overall
system was not functioning properly. In an effort to investigate and pinpoint potential
problems, he took additional air readings in an adjacent entryway between two mined
out longwall panels. This entry was part of the “internal airflow paths,” which MSHA
considers important to the overall evaluation of bleeder systems. He found methane
readings in the entryway to be within the explosive range, justifying the imminent
danger order. MSHA Headquarters officials confirmed that it can be necessary and
appropriate to take air readings in locations other than established evaluation points,
including internal airflow paths, to assure proper operation of a bleeder system.

In late 2006 MSHA prepared a Draft Program Policy Letter that stated:

       The application of Section 75.334(b)(1) has been addressed differently
       from District to District and has resulted in inconsistencies throughout the
       industry. This PPL is intended to assure uniform and consistent
       understanding of the standard.

The draft Program Policy Letter included the following guidance:

       Methane and oxygen concentrations, air quantity and direction of the
       airflow at bleeder connectors and within the primary internal airflow paths
       are important considerations relative to the adequacy of dilution of
       contaminant gases and overall system effectiveness [underlining added
       for emphasis].

       A determination that a methane concentration of 3.0 percent or more at
       approved measurement point locations (MPL's), evaluation points, or in
       bleeder entries does not exist or the fact that there has not been a
       determination to include additional MPL's in the ventilation plan, does not
       mean that the bleeder system is in compliance with Section 303(z)(2) of
       the Mine Act or 30 CFR 75.334(b)(1). The operator has a continuing
       obligation to evaluate the effectiveness of the bleeder system by a
       method and at locations appropriate to the circumstances [underlining
       added for emphasis].

The draft policy document was never issued in a final form. Rather, MSHA informed
the OIG that it has interpreted several Federal appellate court decisions to have
affirmed its practice with respect to bleeder systems. 3 Therefore, MSHA had decided
it was not necessary to pursue the time consuming process of establishing a Program
Policy Letter through the rule-making process.

3
 Cumberland Coal Resources, LP v. FMSHRC, 171 Fed. Appx. 852 (D.C. Cir. 2005) (unpublished
decision); Plateau Mining Corp. v. FMSHRC, 519 F.3d 1176 (10th Cir. 2008); and Cumberland Coal
Resources, LP v. FMSHRC, 515 F.3d 247 (3d Cir. 2008).
                                       -7-



However, case law precedence can be affected and modified by newly decided cases.
Individual cases are also subject to varying interpretations based on specific facts or
for other reasons. It is unreasonable to expect mine operators – especially small
operators – to understand and comply with unwritten MSHA policy by continually
monitoring and interpreting case law. Issuance of a stated policy, similar to the one
drafted in 2006, would most effectively establish MSHA’s expectations regarding
evaluation of bleeder systems.

We recommend that MSHA issue written guidance to its inspectors and to mine
operators, consistent with existing laws and regulations, that clarifies its policy
regarding the proper evaluation of a bleeder system.

#14 - Verbal 103(k) Orders and Written Clean-up Plans for Unplanned Roof Falls
Am Coal complained that MSHA has incorrectly issued verbal closure orders (i.e., by
telephone) under Section 103(k) of the Mine Act although the statutory language
states that an inspector may issue orders to insure the safety of any person in the coal
mine “when present.”

SOL confirmed that MSHA has no written policy addressing the issuance of verbal
closure orders. Rather, there is an “unwritten practice” to issue verbal closure orders
when warranted by the facts. For example, when inspectors cannot get to a site
immediately after a reported accident due to location and/or time of day factors, they
may issue a verbal closure order and get to the site as soon as possible. SOL bases
this position on MSHA’s overall mandate under the Mine Act to assure the safety of
miners.

We recommend that MSHA take immediate action, to include seeking legislative
changes if necessary, to resolve the conflict between its existing practice and
the language in Section 103(k) of the Mine Act that requires an inspector to be
present to issue a closure order.
